CERTIFICATE OF SERVICE
I, Carmencita Maria Pedro, hereby certify that service shall be made electronically via
email on the individuals listed below in accordance with Supreme Court Order 589 U.S.,
which states, in relevant part: “...IT IS FURTHER ORDERED that, notwithstanding Rule
29.3, parties may be relieved of the obligation to effect service of paper versions of filings
upon other parties if they agree to electronic service,' parties are strongly encouraged to
use electronic service if feasible..,” and Supreme Court Rule 29.3, which states in relevant
part: “...Ordinarily, service on a party must be by a manner at least as expeditious as the
manner used to file the document with the Court. An electronic version of the document
shall also be transmitted to all other parties at the time of fling or reasonably
contemporaneous therewith...”
Although Ms. Pedro is proceeding pro se and In Forma Pauperis, the email addresses of
opposing counsel are known and they have consented to electronic service of all legal
papers in Pedro v. City Fitness. LLC., et al.. as follows below.
Via email: riennings@.dmvlawfirm,com
Rufus Jennings, Esquire
Deasey, Mahoney & Valentini, LTD.
1601 Market Street
Suite 3400
Philadelphia, PA 19103

Via email: msd@daneklawfirm.com
Mark Danek, Esquire
The Danek Law Firm, LLC.
1255 Drummers Lane
Suite 105
Wayne, PA 19087

Respectfully sdbmitte

ml

/T'

L

Carmencita Maria Pedro
pro se Petitioner
Date: Friday, 9 October 2020
41

